<html>
<title> - FEDERAL FUNDING OF MUSEUMS</title>
<body><pre>[Senate Hearing 109-742]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-742
 
                       FEDERAL FUNDING OF MUSEUMS

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                     INFORMATION, AND INTERNATIONAL
                         SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION



                               __________

                             APRIL 5, 2006

                               __________


       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                    U.S. GOVERNMENT PRINTING OFFICE

27-760 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
   Joyce A. Rechtschaffen, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, AND INTERNATIONAL 
                         SECURITY SUBCOMMITTEE

                     TOM COBURN, Oklahoma, Chairman
TED STEVENS, Alaska                  THOMAS CARPER, Delaware
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
LINCOLN D. CHAFEE, Rhode Island      DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              MARK DAYTON, Minnesota
PETE V. DOMENICI, New Mexico         FRANK LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia             MARK PRYOR, Arkansas

                      Katy French, Staff Director
                 Sheila Murphy, Minority Staff Director
            John Kilvington, Minority Deputy Staff Director
                       Liz Scranton, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Coburn...............................................     1
    Senator Carper...............................................     7

                               WITNESSES
                        Wednesday, April 5, 2006

Hon. Anne-Imelda M. Radice, Director, Institute of Museum and 
  Library Services...............................................     4
David A. Ucko, Ph.D., Program Head, Informal Science Education 
  Program, National Science Foundation...........................     5
Thomas A. Schatz, President, Citizens Against Government Waste...    11
Edward H. Able, Jr., President and CEO, American Association of 
  Museums........................................................    12

                     Alphabetical List of Witnesses

Able, Edward H., Jr.:
    Testimony....................................................    12
    Prepared statement...........................................    36
Radice, Hon. Anne-Imelda M.:
    Testimony....................................................     4
    Prepared statement...........................................    17
Schatz, Thomas A.:
    Testimony....................................................    11
    Prepared statement...........................................    33
Ucko, David A., Ph.D.:
    Testimony....................................................     5
    Prepared statement...........................................    23

                                APPENDIX

Questions and responses for the Record from:
    Ms. Radice...................................................    42
    Mr. Ucko.....................................................    49
    Mr. Schatz...................................................    51
    Mr. Able.....................................................    53


                       FEDERAL FUNDING OF MUSEUMS

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006

                                       U.S. Senate,
            Subcommittee on Federal Financial Management,  
        Government Information, and International Security,
                        of the Committee on Homeland Security and  
                                               Governmental Affairs
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:29 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding.
    Present: Senators Coburn and Carper.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. The hearing will come to order. It cannot 
be said that the Senate is always late. We are starting this 
hearing early. I would advise our witnesses that we will have 
something occurring on the floor at 3:15 this afternoon and I 
will have to leave here at about 3:05 p.m.
    This is one of the fun hearings I get to have because we 
are going to hear from witnesses that do it right. We are 
oftentimes critical of the bureaucracy and what they 
accomplish. I am a big supporter of the arts in terms of art 
education and what our history through museums can give to us 
and the difference it can make in terms of rounding an 
education.
    Our problems are that we have a wonderful structure as 
demonstrated by Mr. Ucko and Ms. Radice today, in terms of how 
things work and should work in government. The problem is that 
much of it is taken outside of their hands and it goes through 
earmarks which often times leads to not the best choice, it 
bypasses the grant system which we set up and appears to be 
wonderfully managed and supervised by you both.
    One of the things we talk about here is accountability in 
government, and I am proud to say that our first two witnesses 
today through what we have ascertained in looking at the grant 
process, the management and the oversight, are doing exactly 
what we are talking about in terms of transparency, in terms of 
results, in terms of priority setting, responsiveness, and also 
spending discipline. One of the few areas that has grown not so 
much in the last 5 years have been the expenditures, even with 
earmarks on our art history, our museums, and those things that 
comprise what we would value as great educational tools. There 
is some concern we have seen with declining attendance at some 
of these institutions, and that is not about dollars, that is 
more about have we taken our eye off the ball in terms of 
education and its value in our country.
    What I am very much concerned about is how we bypass two 
out of the four, actually, all four agencies that are 
responsible for most of these grants, and we use it through an 
earmarking process that takes away the accountability and the 
transparency that should be there, and it is my hope that our 
other witnesses today will highlight some of that.
    Because of our shortage of time, I will make my formal 
comments that I had prepared as a part of the record, and I 
will do that without objection since there is nobody here to 
object.
    [The prepared statement of Senator Coburn follows:]
                  PREPARED STATEMENT OF SENATOR COBURN
    There is great value for communities and citizens in the arts, 
historic collections and museums. They are a reflection of our culture 
and people, and are important to our history and national identity. 
Children and young learners benefit tremendously from art programs in 
the schools. Believe it or not, I certainly did. These activities make 
for well rounded citizens, tomorrow's leaders. Museums play an 
important role in our lives.
    The focus of today's hearing is to examine the various avenues of 
Federal funding for museums including authorized programs, grantmaking 
agencies and earmarks. The Administration has requested at least $1.45 
billion in FY 2007 funds for the arts, cultural or learning activities, 
and the buildings themselves. If history is a guide, Congress will 
likely exceed the amount of the request.
    The Federal Government has spent $7 billion of taxpayer money on 
museums, centers, institutes, galleries, zoos, aquariums, and halls of 
fame since 2001. By my estimates, this type of funding has increased 
almost 25 percent in the past 5 years. Though the President actually 
cut the entire budget for Arts in Education for his FY07 budget 
request, he proposed a $65 million increase in other such spending 
overall.
    According to 2003 data from the American Association of Museums, 
the 15,000+ museums in the country depend on government grants for one-
fourth of their operating income.
    Grantmaking agencies include: NEH, NEA, Institute of Museum and 
Library Services, and the National Science foundation's Informal 
Science Education Program. These grants are competitive. There is a 
process where an institution must prove its worth and is, from what I 
understand, closely monitored by the agencies. There are real 
consequences throughout the grant period if a museum doesn't adhere to 
the terms and conditions of the award. I wish there was more of that in 
Federal Government.
    Earmarks, however, get to cut in line and skip the competitive 
application. Favored projects receive money without having to compete 
with the other museum. Some authorized funding exists solely for Member 
earmarking. The Department of Housing and Urban Development makes 
Economic Development Initiative grants available to Congress for home 
district projects. There is no competition.
    A review of museum earmarks between fiscal year 2001 and 2006 
appropriations bills conference reports uncovered more than 860 
earmarks totaling $567 million. On average, the Appropriators directed 
64 percent of the projects and money to their home States each year.
    This type of spending peaked in FY 2005 at $88 million for 183 
earmarks. For FY2006 total earmark spending approached $72 million for 
111 earmarks. The decline was likely due to the ban on earmarks in the 
Labor HHS Education Appropriations bill.
    The earmark review also revealed that several museums ``double 
dip,'' splitting their earmark requests across bills in the same year 
to make the amounts more palatable for appropriators, or to hide second 
requests from one set of appropriators completely. This is like asking 
Mom for your allowance after Dad already gave it to you.
    Even more revealing was the individual entitlements for a handful 
of museums who receive earmarks for same amounts to fund the same so-
called ``new'' projects year after year. Between FY04 and FY06 one 
museum requested over $1.7 million. They had two earmarks each year--
one for ``construction of a new museum'' and the other for ``exhibits 
and programming.'' I guess they didn't plan too well, because in 2006 
they also requested money for an ``expansion.'' There is no review and 
no accountability. I will be releasing this report on my website this 
week for anyone who wants to dig further.
    I also learned that several museums request money to build 
``visitors centers'' or ``learning centers'' for the museum. This begs 
the question: Isn't the museum itself already a center for visitors 
which facilitates and fosters primary source learning? Isn't that what 
a museum is?
    Given the local nature of most of the grants and earmarks, it is 
difficult to defend the expenditure of taxpayer dollars to benefit a 
small group of people in Muskogee, St. Louis, or Anchorage. If a 
community truly wanted such an institution or program, they would and 
should find a way to pay for it with local and State money, or through 
admission fees.
    I am so pleased to learn of the many accountability principles that 
guide the grant work of Informal Science Education and the Institute of 
Museum and Library Services which we'll hear more about today. You're 
doing a good job, and you should be recognized.
    I am not challenging the merit of a particular grant or institution 
today, but would like to remind my colleagues that the current fiscal 
environment of war, Katrina and Social Security and Medicare insolvency 
is a very serious situation. One criticism of the President I have is 
that he has not asked the American people to sacrifice during war time. 
We cannot, as a government, do everything we would like to do. I think 
the American people would be very forgiving and willing to make 
sacrifices if only asked.
    During a time of war Presidents Roosevelt and Truman slashed non-
defense spending by over 20 percent. It can be done. I am not 
advocating a complete termination of these programs or this type of 
spending. However, it is our responsibility to taxpayers to be frugal, 
and it is our duty to be transparent and accountable for every dollar 
of their hard earned money we spend.
    Why not hold museum and arts funding steady at current levels? I 
believe that budget increases for nonessential activities during a time 
of great challenge to our Nation are indefensible. It is Congress who 
holds the purse strings and, frankly, we have been unwilling to make 
the tough decisions today for the future wellbeing of our 
grandchildren. We've got to stop focusing on political expediency and 
start thinking about future generations.

    Senator Coburn. Anne-Imelda Radice is Director of the 
Institute of Museum and Library Services. She most recently was 
Acting Assistant Chairman for Programs at the National 
Endowment for the Humanities. Before joining the National 
Endowment of the Humanities, she served as Chief of Staff to 
the Secretary of the U.S. Department of Education. In the early 
1990s, she served as the Acting Chairman and Senior Deputy 
Chairman of the National Endowment for the Arts. She was the 
first Director of the National Museum of Women in the Arts. She 
was confirmed as IMLS Director in March of this year.
    David Ucko is a former university chemistry professor. He 
has directed ISE since 2003, and has an extensive background in 
science museums and centers, holding directorships around the 
country and posts at the National Science Foundation and the 
National Academy of Sciences. He served as President of Science 
City in Kansas City, Missouri, from 1990 to 2000. He also 
provides consulting services to assist museums and other 
organizations in carrying out mission-driven planning and 
innovation as President of Museums+more.
    I would like to recognize each of you for 5 minutes. Your 
complete testimony will be made part of the record, and Ms. 
Radice, I think we will recognize you first.

TESTIMONY OF HON. ANNE-IMELDA M. RADICE,\1\ DIRECTOR, INSTITUTE 
                 OF MUSEUM AND LIBRARY SERVICES

    Ms. Radice. Thank you, Mr. Chairman, and thank you for your 
gracious remarks. I am pleased to represent an agency that was 
built from the ground up with integrity, professionalism, 
transparency, and imagination. This is an agency where 
achievement is highlighted through competition, where return on 
investment is measured, grant-tracking required. We do share 
your commitment to ensuring that the Federal Government is a 
good steward of taxpayer dollars.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Radice appears in the Appendix on 
page 17.
---------------------------------------------------------------------------
    Through the competitive grant process, we assist our 
Nation's zoos, science centers, planetariums, national history 
museums, nature centers, history museums, historic houses, 
specialized museums, children's museums, art museums, botanical 
gardens, arboretums, aquariums, and libraries, to build 
capacity, develop programs that protect our heritage, provide 
training that develops new jobs, support research, and provides 
seed money for reports and how-to guides that have a life span 
beyond the tenure of any one director.
    For nearly 30 years, the Institute has developed and 
refined the process. Every application receives a thorough and 
objective review, and those recommended for funding have 
received independent reviews from two different peer-review 
processes before I make the final decision. These expert 
reviewers are not Institute employees. We have a stringent 
conflict-of-interest policy, and we require matching funds for 
the projects. Prior to the awarding of the grants, IMLS staff 
also conducts cost analyses of these projects. A grantee is 
required to exert fiscal control and employ fund accounting 
procedures that ensure proper disbursement of and accounting 
for Federal funds. IMLS grantees may not award subgrants, and 
we do not accept applications for cost overruns.
    Mr. Chairman, I, too, come from a family in the medical 
profession. My dad Lawrence was a neurologist, and my mother 
Anne was a surgical nurse. Their parents were immigrants who 
worked hard so that their children would have better 
opportunities to be educated, and a better life. My parents, by 
example and sometimes fiat, instilled the importance of 
integrity, hard work, and giving back. As a child growing up in 
Buffalo, I was brought to the library on Elmwood Avenue every 
Saturday morning, and the Albright-Knox Art Gallery in the 
afternoon. These visits were important for us, and provided me 
with the inspiration to pursue a career in the arts. And I have 
been a museum director and was acquainted with IMLS, the IMS, 
as a customer, and I must say, even those early days, this 
Federal agency was the gold standard. The dream was to receive 
a grant which gave not only important funds for operations, but 
a professional imprimatur and needed leverage for fund-raising.
    Each dollar is precious, as is the education and betterment 
of each of our citizens. IMLS has long understood the tenants 
of return on investment and help that produces long-term 
solutions rather than quick fixes. My own personal passion is 
conservation which resonates with both libraries and museums. I 
was so pleased that one of my very first acts as director of 
the Institute was to announce emergency grants to museums in 
the Gulf Coast. What a wonderful list they are. They include a 
State museum, an art museum, an arboretum, a children's museum, 
and Jefferson Davis's home. They underscore our commitment to 
help the Gulf Coast recover from these hurricanes.
    I hope when my tenure is completed with the help of those 
who are interested and want to participate, that we will make 
great advances in preserving our heritage, objects, 
experiences, but that also we can help create some new jobs, 
and we can help create an army of volunteers, just as museums 
and libraries have done, docents, information specialists, and 
gift shop workers. And I say as you listen to Mr. Able today, 
you will marvel at how these structures are built on the 
goodwill, big hearts, and donated time of our fellow Americans.
    Mr. Chairman, I am proud to represent a Federal agency that 
can look at itself straight in the eye and be proud of its 
transparency, efficiency, and accountability, and I believe 
that the American people are well served by what we do and what 
we are able to provide libraries and museums.
    I welcome your questions, sir, and I seek your counsel.

 TESTIMONY OF DAVID A. UCKO, PH.D.,\1\ PROGRAM HEAD, INFORMAL 
     SCIENCE EDUCATION PROGRAM, NATIONAL SCIENCE FOUNDATION

    Mr. Ucko. Chairman Coburn, Senator Carper, thank you for 
the opportunity to describe the merit review process by which 
the National Science Foundation makes available grant funds for 
museums.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ucko appears in the Appendix on 
page 23.
---------------------------------------------------------------------------
    Have you had the opportunity to explore the hands-on 
exhibit ``Invention at Play'' at a science museum? Perhaps you 
have seen the ``NOVA'' program ``Einstein's Big Idea'' on TV, 
or watched ``ZOOM'' or ``Peep'' with your children or 
grandchildren. Or listened to ``Science Friday'' or ``Earth and 
Sky'' on the radio. Or been immersed in the film ``Forces of 
Nature'' in a giant screen theater. Or perhaps visited the 
Exploratorium Website on the science of cooking.
    If so, you are familiar with the investments of the 
Informal Science Education Program, the primary source within 
NSF of funds for museums and other organizations that promote 
public interest, engagement, and understanding of science, 
technology, engineering, and math. Our program invests in 
projects that develop educational activities for self-directed 
learning outside the classroom for audiences from preschoolers 
to older adults.
    Over the last two decades, the ISE program has catalyzed 
the expansion of science museums to some 338 institutions in 
the United States today, and made possible about half the 
national traveling exhibitions. The program has established 
science programming for children and adults on television, 
radio, and large-format film. Today the ISE program is funded 
at $63 million, within the $5.6 billion NSF budget. About 40 
percent of ISE awards each year are made to science museums, 
including science-technology centers, natural history museums, 
children's museums, planetariums, zoos, aquariums, botanical 
gardens, and nature centers. They represent nearly two-thirds 
of total NSF funding for museums. The rest comes from 
throughout the agency, such as research grants to scientists 
and curators in natural history museums and botanical gardens. 
In total, 40 to 50 museums receive grant funds each year.
    The NSF appropriation does not receive earmarks for museums 
or other institutions. Funds are awarded solely through merit 
review based on the National Science Board criteria of 
intellectual merit and broader impacts. Funding is extremely 
competitive. Last year, the success rate for NSF overall was 23 
percent, and 17 percent for our program. Project directors from 
museums and other organizations called principal investigators, 
or PIs in NSF lingo, submit proposals in response to our 
solicitation. To conduct merit review, program officers form 
panels of experts with relevant knowledge and experience in 
informal learning, scientific content, evaluation, and areas 
specific to the type of proposal, such as exhibition design and 
production.
    First, panelists write independent reviews, rating 
proposals from excellent to poor. Then the panel meets as a 
whole to discuss the merits of the proposals, rating each as 
high, medium, or low as a priority for funding. All the 
reviewers and panelists serve as volunteers. Costs for running 
panels are modest, about one percent of program funds.
    Program officers then meet as a group to recommend for 
funding from the most highly rated proposals those that will 
create a diverse portfolio of exhibition, media, community, 
youth, and technology projects, with greatest potential 
national impact on the public and the field. These 
recommendations and their rationale must be approved by the 
division director. Awards are then made by the Division of 
Grants and Agreements, following review of the budgets and the 
financial capability of the grantee organizations.
    After a grant is made, the PI is required to submit an 
annual report describing progress. It must be approved by a 
program officer before the next annual funding increment of a 
multiyear award can be authorized. Site visits may be made by 
the program officer or by the Division of Grants and Agreements 
to monitor financial aspects.
    At the end of the project, the PI must submit a final 
report summarizing outcomes and impacts, including an 
independent third-party summative evaluation, which must be 
posted at the Website informalscience.org so that others can 
learn from the project. Each NSF program is reviewed every 3 to 
4 years by a group of outside experts called a Committee of 
Visitors. Last year our program was favorably reviewed by such 
a committee, including how well we carry out the merit review 
process.
    That is not to say we cannot improve. We have recently 
started using Web conferences as a low-cost mechanism for 
reaching new prospective PIs. We are creating an online 
database to help us monitor projects. Through these and other 
means, we continue to work towards making the most effective 
investments in fostering a well-informed citizenry and a 
diverse future work force of scientists and engineers, a goal 
that supports the President's American Competitiveness 
Initiative. This outcome is especially important to our Nation 
today when science and technology play ever-increasing roles in 
our daily lives, in local and national policy, and in the 
competitive global marketplace. Thank you.
    Senator Coburn. Let me take this opportunity to give 
Senator Carper, my partner on this Subcommittee, both of us 
dedicated to making sure that we do have accountability, 
transparency, and efficiency in the Federal Government, an 
opportunity to speak, and then we will ask some questions.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. We are delighted that both of 
you are here. He leaned over to me and he said, ``These two are 
great, aren't they?'' And I feel we are very fortunate that you 
are here today and your testifying and proud of the kind of 
programs that you are running. I have some questions that we 
will get into here, but I will just reserve any other comments 
at this time. Thanks.
    Senator Coburn. You both have testified about how your 
process works, the oversight that you have on it, the 
transparency, the innovation. You probably did not know that we 
had a hearing not long ago on travel and conferences, and the 
fact that you are using digital video to do some of these 
things and you are putting some of this online is great because 
it saves the taxpayers money.
    My big concern is you have both demonstrated integrity in 
what you do, and yet over the last 5 years, over a half a 
billion dollars has gone outside of you through earmarks which 
are not necessarily, some are, I understand, but many are not 
subject to the same scrutiny. Without putting you in a position 
cross-wise with the very people who appropriate your funds, 
would you care to comment on the value that America would 
attain if everything we did in those areas actually went 
through, and I know some are checked and some are discussed 
between the Appropriations Committee, but the fact is they are 
not run on a competitive basis. They do not have to meet the 
same things.
    What is the result when $567 million worth of funds, your 
budget is $63 million a year I think you testified, what is the 
result in terms of discouragement to those people who wait in 
line and are in competition for scarce dollars, when all of a 
sudden somebody jumps ahead of them with an earmark? What is 
the result in terms of, does it send more people to go get it 
that way so that we have less oversight? What is the result of 
that that you all see in terms of not only just the best 
priority, where do we spend the dollars the best and which is 
what your organization attempts to do, both of you, but also 
the scrutiny that money then undergoes? Do you have any comment 
on that, Ms. Radice?
    Ms. Radice. As you know, we do have some earmarks that are 
delivered to our door like Moses, and thank you for commenting, 
that, yes, we do in fact make sure that once they are delivered 
that they are well handled. I think you have said it very 
succinctly. It is a shame that they do not have the opportunity 
to have the review process, because a review process is not 
than a contest. It is the ability to seek technical assistance, 
it is being plugged into a network to know what else is going 
on in the field. There may be some efficiencies in developing 
partnerships. Of course, all of those steps cannot happen if, 
in fact, it is just delivered to you. And I have to say our 
staff, and thank you for noting that we have kept our 
expenditures down, puts the same effort in making sure that 
those are handled correctly. But you said it very succinctly, 
sir. I could not add any more to that.
    Senator Coburn. Mr. Ucko.
    Mr. Ucko. We have not had the experience of earmarks at 
NSF, but we have found the merit review process to be a 
tremendous mechanism for encouraging extremely innovative and 
creative approaches to addressing issues in the field and a 
method that is really beyond reproach in terms of selecting 
those that are most worthy of funding. So we have found it to 
be an excellent way to allocate our scarce resources.
    Senator Coburn. What happens when somebody is not compliant 
within your process now? In other words, they have not met the 
requirements of the grant, or they are overbudget, or they have 
fallen out of line as set up under your processes? What 
happens?
    Ms. Radice. Would you like to go first?
    Mr. Ucko. For example, if the progress is not sufficient or 
if there are serious issues on a multiyear award, because each 
of our awards is made one annual increment at a time, future 
increments are held up. So there is a check on the continuing 
funding for that award if there is a problem with it.
    Senator Coburn. Ms. Radice.
    Ms. Radice. We operate on a reimbursable procedure, so in a 
few instances there is some advanced money that can be sent, 
but it is minimal. And there are not only annual reports, but 
sometimes semiannual reports, and if there were any problem 
that the money was not spent correctly, we would have no 
problem in going and recovering it. But thank heavens, we have 
not really had to do that.
    Senator Coburn. So the best treatment for that is 
prevention in the first place?
    Ms. Radice. And there is another point to your competitive 
process, because there is an opportunity to actually review the 
structure that the grant might be operated under. Again, they 
can get advice from us.
    Mr. Ucko. One of the things we have started to do 
particularly for smaller organizations is Web conferencing on 
the financial aspects of awards with our Division of Grants and 
Agreements so that the PIs can become very familiar with the 
financial management issues as well as the program issues.
    Senator Coburn. Ms. Radice, what I picked up from you is, 
when we go through the earmark process rather than the grant 
process, we do not take advantage of some of the things that 
could make organizations better, they could be more excellent. 
In other words, things do not get focused down the funnel of 
the experience that is out there both from your organization, 
but also from those people who you fund, that learn things. Is 
that a significant factor related to cost, first? And second, 
performance, in terms of how the money is actually spent?
    Ms. Radice. I think the rub on some of this is that the 
institutions that have come in for earmarks, and I would say 
99.9 percent are very good institutions, and the project may be 
quite valuable, however, it could be even better if it had 
been, I think, competed.
    Senator Coburn. So there is an opportunity cost there?
    Ms. Radice. There are some opportunity costs, but I have to 
say, and I think you have said this as well, sir, that in many 
instances they are great projects, but they could be better, 
and as you say, people bumping ahead of the line is an issue.
    Senator Coburn. One final question. You have steps in place 
to recall a grant award or ask for reimbursement from a museum 
if they do not adhere to conditions?
    Ms. Radice. Yes, sir.
    Senator Coburn. What are some examples of things that can 
get a grant pulled?
    Ms. Radice. Obviously, any kind of financial malfeasance, 
not doing what you say you're going to do. Those are pretty 
egregious. Because the grant process is intricate and because a 
lot of these reports about the condition of the museum or a zoo 
or whatever have already been submitted to IMLS, we are pretty 
confident that when that grant goes out it is going to be 
handled correctly. But there are instances where things happen.
    Senator Coburn. And it does happen?
    Ms. Radice. It has happened, but the staff is on it.
    Senator Coburn. That is great. I will have a few more 
questions, but will submit them for the record and in writing 
to you, if you would return those.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman. I want to follow-
up a little bit on a question that has been asked by our 
Chairman. We have a project that is funded through an earmark 
as opposed to a regular competitive grant process. I think you 
mentioned, Ms. Radice, that most of them are good projects, and 
I think you also said that they actually could in some cases be 
better. Do you ever have a situation where, and I think Mr. 
Ucko alluded to this as well, we talked about the merit review 
process actually enhancing the quality of the projects that 
have occurred, do you ever have a situation where you put the 
merit review process at the end of the approval process for 
earmarks, realizing they do not have to go through this, they 
have been earmarked and they are going to get the money? Is 
there some way to do that to tag it on almost as an 
afterthought, but really as a way to better ensure that the 
monies that are going to be appropriated are well spent?
    Ms. Radice. Actually, Senator Carper, that is a great 
question, and the way we handle it is when it is apparent that 
an earmark is going to occur, a letter actually goes out from 
IMLS that is extremely detailed, budgets, schedule of 
completion. It hands out the general terms and conditions of 
IMLS grants. So even though the horse is out of the barn, folks 
are required to adhere to our regulations. But, yes, absolutely 
they have to.
    Senator Carper. Are folks ever surprised when they find 
that they have to?
    Ms. Radice. Since I have been there 3 weeks, I would guess 
they may be, some might be, but I cannot say for sure, sir.
    Senator Carper. What were you doing 4 weeks ago?
    Ms. Radice. I was at the National Endowment for the 
Humanities.
    Senator Carper. Mr. Ucko, you talked earlier in your 
comments and your testimony, and I wrote down these words, 
``Made possible about half the traveling exhibitions,'' those 
words. Could you just go back and revisit that sentence and 
that statement and expand on that for us, if you will? What 
were you talking about there? I think I know, but I want to 
make sure.
    Mr. Ucko. Museums have two kinds of exhibitions, what are 
considered permanent exhibitions, which have a lifetime from 5 
to 10 or more years, and those that are there for typically a 
3-month period and then move on to another institution. So 
these touring or traveling exhibitions are ones, many of which 
we have funded through our program, that get, over a course of 
years, to go to many museums across the Nation. Those are 
traveling exhibitions, typically 3,000, 5,000, maybe 10,000 
square feet in size.
    Senator Carper. I was at the Children's Museum in Atlanta a 
year or two ago, and they are real proud of their museum and it 
is a real focus on science. They actually create some of their 
own traveling exhibitions. They have it on display there for a 
while as a sort of semipermanent exhibition, but then their 
exhibition goes on the road, and I think they actually do this 
as a way to make money to help pay for the cost of running 
their museum. Does that ring a bell?
    Mr. Ucko. Yes, you can do that, if you do it right.
    Senator Carper. How common or how prevalent is that?
    Mr. Ucko. It is fairly common. It is cost-effective for us 
because we are not just impacting one community, but we are 
impacting lots of communities across the Nation.
    Senator Carper. Let me ask you, Chairman, do you have in 
Oklahoma some Children's Museums or Science Museums?
    Senator Coburn. We have a couple of Children's Museums. Of 
course, we have the Western Heritage Museum in Oklahoma City, 
and then we have the Murrah Building Bombing Memorial which is 
another area, as well as the Gilcrease Museum and the Philbrook 
Museum in Tulsa, so we have several.
    Senator Carper. There has been talk in Wilmington for a 
number of years to create a Children's Museum, really sort of a 
Children's Science Museum, and initially we are making sure 
they have a place to build their museum along the riverfront in 
Wilmington. If you ever come through Wilmington on the train in 
a year or two, hopefully you will be able to look outside the 
window and see the Children's Science Museum taking shape.
    For a start-up like that, how can your agency be helpful to 
them?
    Mr. Ucko. We cannot fund capital costs, but we could fund 
programmatic development that is part of it if they can come in 
with a competitive proposal. One of the roles our program 
officers play is working with people that are interested in 
submitting proposals well in advance of submitting one, to help 
them and guide them in developing something that is consistent 
with our solicitation. So we would be glad to talk to whoever 
is working on that project to see if there are some things that 
would fit.
    Senator Carper. Thank you. The Chairman mentioned earlier 
in his comments a hearing that we had a month or so ago focused 
on travel and to what extent agencies were using really too 
much money in some cases for travel, when they could just as 
easily have done meetings by teleconference or by 
videoconference. Some agencies are doing a real good job and 
others are not. If you had to look at your agencies to say 
there are a couple of things we think we do really well that 
maybe the rest of the Federal Government or others in the 
Federal Government could benefit by replicating what we do, 
does anything come to mind as a really best practice?
    Mr. Ucko. Certainly the merit review process for us would 
be a best practice, and it is one that works throughout the 
agency, and the agency is really known for what is the gold 
standard for making Federal awards through that process.
    Senator Carper. Thank you.
    Ms. Radice. I would say in addition to the review process, 
I believe IMLS has been super in developing partnerships, 
whether it is with the American Association of Museums or 
heritage preservation or you name it, we are open to 
partnerships, and we are very concerned about travel. When we 
can do it through the Internet we do. In many instances, 
though, there are large regional meetings and we will send 
someone because it is a face-to-face opportunity. I might also 
say that from what my notes tell me, there are over 200 museums 
in Oklahoma, and over 50 in Delaware, so you are very well 
represented.
    Senator Carper. I had no idea they had that many museums in 
Oklahoma. I knew we had 50. Thanks to both of you. Thank you.
    Ms. Radice. Thank you, sir.
    Senator Coburn. Thank you all very much, and you will 
receive some written questions from the Subcommittee.
    Mr. Ucko. Thank you.
    Ms. Radice. Thank you, Mr. Chairman.
    Senator Coburn. Our next witnesses is Thomas Schatz, 
President of Citizens Against Government Waste. He is a 
nationally recognized spokesperson on government waste and has 
appeared on national television and radio talk shows as 
President of CAGW. They released their 2006 Congressional Pig 
Book today, an important resource for taxpayers where they can 
learn how Congress is spending money.
    Also Edward Able, President and CEO of the American 
Association of Museums. Mr. Able has served as the President 
and CEO of AAM since 1986. He served for 9 years as Chief Staff 
Executive of the American Society of Landscape Architects and 
the Landscape Architecture Foundation. He also served for 4\1/
2\ years as Assistant Director of the Resident Associate 
Program at the Smithsonian Institution.
    I welcome you both. I will apologize to you that we will be 
leaving here in about 8 or 9 minutes, so your complete 
testimony will be made part of the record. Mr. Schatz, I will 
recognize you, and if we could do it in 2 or 3 minutes to give 
us a chance to ask some questions, it would be very important.

 TESTIMONY OF THOMAS A. SCHATZ,\1\ PRESIDENT, CITIZENS AGAINST 
                        GOVERNMENT WASTE

    Mr. Schatz. Thank you again, Mr. Chairman, and thank you 
specifically for joining us this morning. We really appreciate 
your support of our efforts to reduce pork barrel spending, and 
your oversight, as well as you, Senator Carper. Somebody is 
trying to look at all of this, and we appreciate the fact that 
there are oversight hearings.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schatz appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    When it comes to museums, Citizens Against Government Waste 
has uncovered more than one-thousand museum-related earmarks 
since 1995. Your number is $567 million, and it is even a 
little higher than ours, with about $27 million for 79 projects 
this year. Your first two witnesses certainly talked at great 
length and appropriately about the merit review and peer review 
process. We think that is the way museums should be funded.
    So instead of adding more money to those particular 
agencies, Congress decided to go ahead and earmark projects 
itself. The Institute of Museum and Library Sciences has funded 
eight museum projects, at least on their Website that we could 
see, six of which are along the Gulf Coast. But Members of 
Congress decided they did not want to do that, they would 
rather fund places like the Sparta Teapot Museum, in Sparta, 
North Carolina. I do not know who might go there, it is 77 
miles from Winston-Salem, clearly they didn't think they could 
pass muster with these agencies, and that may be one reason why 
it was added.
    We have the Youth Health Museum in Boone County, Missouri, 
which got $750,000. In looking at the projects that the 
Institute funds, they are no more than $150,000. So not only 
are these not peer reviewed, often times the amounts are much 
higher. So we hope at least that these museums and everybody 
who wants money for a project will go through the peer-review 
process. And we also, of course, fully support the earmark 
reforms that you and others are trying to pass in Congress so 
we at least have a chance to see what exactly we are doing with 
our money.
    While this is one area, it is an important one because we 
are talking about hundreds of millions of dollars over the 
years that may or may not be going to museums that are 
worthwhile or have passed some kind of peer review, but we 
think that is the least that they should do.
    Thank you, Mr. Chairman, and thank you for printing my 
entire testimony in the record.
    Senator Coburn. Thank you very much for your concise 
statement.
    Mr. Able, thank you much for being here.

    TESTIMONY OF EDWARD H. ABLE, JR.,\1\ PRESIDENT AND CEO, 
                AMERICAN ASSOCIATION OF MUSEUMS

    Mr. Able. I am going to try and compile this a little bit 
shorter. I will try and hit the high points for you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Able appears in the Appendix on 
page 36.
---------------------------------------------------------------------------
    AAM is the national organization that serves the entire 
museum community. We have 20,000 members, and all types and 
sizes of museums, A to Z, art museums and aquaria, to youth 
museums and zoos, and everything in between, museums with 
budgets of several hundred million, to one of $2,000.
    I want to at least mention to you in the short time that I 
have what we have discovered in the museum financial surveys 
that we regularly conduct. The most recent one shows that in 
spite of the public perception, museums are not wealthy 
organizations. I think we are perceived that way because of our 
collections, but that is not the case. Collections are not 
assets that we use.
    In the other research, we learned that the public believes 
that government primarily funds museums. That is not the case. 
About 25 percent of the funding for all museums in the country 
comes from government. The lion's share, 95 percent of it, 
comes from State and local government, not from the Federal 
Government. The Federal Government provides about 5 percent. 
Earned income represents 30 percent of the revenue required for 
our museums. But by far the largest source is 35 percent coming 
from the generous philanthropy of private citizens, businesses, 
foundations, and corporations.
    Museums compete with other charities for all of that money, 
and it takes all those pieces put together. I know that there 
is a great assumption that admissions, for example, fund a lot 
of our museums, the more people we get, the more money we make. 
We bring in about $5 plus on average from every visitor to a 
museum, everything they spend, admissions, shop sales, it costs 
us $21 per attendee. And we have in excess of 850 million 
visits a year to America's museums, and we maintain the 
collections of 750 million objects, which forms America's 
heritage.
    I think that broad roles that museums play not only in 
education, but in strengthening economic development, Tulsa is 
a good example, where they even included their museums as a 
part of the economic development plan, Vision 2025, I think it 
is called.
    Senator Coburn. That is correct.
    Mr. Able. It is key to economic development. They generate 
an enormous amount of dollars from cultural tourism, in hotel 
tax, sales tax, restaurant tax, all of that, so they play a 
variety of roles.
    The Federal Government, we believe, has a role. We have a 
unique public-private partnership with government, but the 
majority of the support for museums in this country comes from 
the private sector and not from government, and we do want to 
maintain that. We do feel that the Federal Government does have 
a role.
    I want to tell you one quick thing which I have to get in 
here because in my 20 years, I do not consider myself the 
world's greatest expert in museums, but I do say I know enough 
to be dangerous.
    Senator Coburn. That is kind of like Senator Carper 
practicing medicine.
    Mr. Able. There you go. There is a great story about a 
museum right over here in Baltimore. It is called the American 
Visionary Art Museum. They have been working with the National 
Institute on Aging to dispel the stereotypes of old age. In the 
program's first year, medical students from Johns Hopkins 
University were paired with community members age 65 and older. 
Participants in the program visited the museum, met with 
artists, and took drawing lessons together. The results on the 
older participants was as was expected. They felt more 
vitality, creativity, and improved attitudes about aging. The 
effect of the program on the medical students was astounding. 
Participating medical students who planned to obtain 
specialized training in geriatrics doubled from 10 to 20 
percent. One student noted, ``Programs like this could increase 
hope for geriatrics and make it a more appealing specialty.''
    This is an example of the way that I am always talking 
about museums changing lives in unexpected ways, and the 
Federal support and participation in this effort is a critical 
component of it. Thank you, sir.
    Senator Coburn. Let me ask you a question real quick, and 
then we are going to have to run. I apologize again, and we 
will submit questions for the record.
    The Subcommittee research on this says that American museum 
attendance is declining.
    Mr. Able. No, I do not agree with that.
    Senator Coburn. Do you have data that you can give the 
Subcommittee on that that would show that differently?
    Mr. Able. We do.
    Senator Coburn. The basis for my question is this. For the 
benefits to be gained, we have this wonderful infrastructure 
out there, how do we get more utilization of it?
    Mr. Able. We are trying to figure that out because that is 
one of the reasons that is driving so much museum expansion. In 
the prime visiting periods, Senator, we are overpopulated with 
people. We are cheek by jowl in many of our museums. If you go 
into the Smithsonian or any of the museums on the weekend, it 
is really undermining the quality of the individual visit. So 
we are talking to our museums about shifting their hours, to be 
open more in the evening, to take some of the pressure off the 
peak visiting times.
    But visitorship is not dropping. We had a slight downturn 
after September 11 because of the drop in travel and tourism, 
but that was a very limited period of time.
    Senator Coburn. Let me ask one other question. You are a 
taxpayer, I presume.
    Mr. Able. Yes, I am. Very much so, sir.
    Senator Coburn. The real Federal deficit last year was $520 
billion.
    Mr. Able. I don't like that either.
    Senator Coburn. What we're doing is just putting it on our 
kids' backs.
    Mr. Able. I agree.
    Senator Coburn. If you were sitting in our position today, 
would you agree that what we ought to be doing is making 
priorities out of where we spend our money and that maybe we 
don't want to cut spending, but maybe we can't increase 
spending everywhere we would like and that the defense of the 
country, Medicare, Social Security, Medicaid, education, and if 
we could freeze or hold where we are, could you all make it? In 
other words, the real question is, where are we going to get 
the money to continue to be the 5 percent that you want us to 
be, because right now it is not there? What is happening is we 
are going on and spending the 5 percent, but we are using the 
credit card to charge it to our grand kids. The perspective of 
both who you represent and your interests there, but also your 
perspective as a taxpayer, can you give us any wisdom on where 
you would send it?
    Mr. Able. In fact, I have seen the Federal support for 
museums actually drop over the last decade. By the time you 
take the actual cuts that were meted out to both the Institute 
of Museum and Library Services, the National Endowment for the 
Arts, the National Endowment for the Humanities, and then you 
take inflation on top of that, the support of our museums is 
actually less than it was a decade ago. Yet the cost and the 
expansion of our public service, the public attendance at 
museums grew from 486 million visits in 1989, to 850 million in 
1999. That is almost double in one decade. In fact, I feel that 
we have experienced a cut, and I certainly appreciate the 
Federal deficit and I appreciate the challenge that the 
Congress has in trying to figure out not only how much money to 
allocate, but the process by which it is allocated.
    Senator Coburn. I won't have anything else to ask, and I 
have to leave.
    Senator Carper. The Chairman has asked you a couple of 
questions. I was going to try to get a feel for that 5 percent 
number, whether it is rising, going down, or stable. It sounds 
like the percentage of the Federal contribution is actually 
down a little bit.
    Mr. Able. It is down, yes.
    Senator Carper. If that is down, is there some other part, 
whether it is philanthropy, that has grown?
    Mr. Able. Philanthropy has really grown from, I think, 19 
percent to 35 percent, and our museums have been very ingenious 
in finding other ways of generating funds.
    Senator Carper. Could you give us a couple of good 
examples?
    Mr. Able. For example, they will host special events. They 
are adding spaces that don't expose the collection to damage 
where they can actually host special events for conferences and 
conventions and things like that, because it is very good to 
have the events in there. Royalties for reproductions and 
adaptations from our collections. Parking fees. The museum shop 
sales. Every place we can get it, frankly. But philanthropy is 
the biggest portion.
    Senator Carper. I want to go back to the number of people 
that are actually visiting the museums. Did I understand you to 
say that in the last decade it was up almost double?
    Mr. Able. In a decade from 486 million to 850 million.
    Senator Carper. In our museums, and, frankly museums around 
the country, they have some great space and interesting 
exhibits, and a lot of them rent out their spaces for 
receptions, dinners, and the like.
    Mr. Able. Right, and they get a substantial amount of 
income. I know of several museums that receive as much as 20 
percent of their budget because they have a specialized space 
they can use for that, and it is a very desirable space for 
meetings, conferences, dinners, and receptions.
    Senator Carper. Mr. Schatz, if I could, just one question. 
The question relates to earmarks. You may well not know this, 
but if you do, if you would give us some guidance, I would 
appreciate it. There is a widespread suspicion that the 
percentage of earmarks that goes to appropriators, those who 
serve on the Appropriations Committees in the House and in the 
Senate, might be just a little bit greater than the percentage 
of the earmarks that go to those who do not serve on the 
Appropriations Committees. Can you put any light on that?
    Mr. Schatz. I don't think it's a suspicion, I think it's 
true. Certainly the number up here, it says 64 percent directed 
to the States of appropriators makes sense, and in our 
Congressional Pig Book we list pork per capita, and that is 
Alaska, Hawaii, West Virginia, North Dakota, it's the States 
that are represented in this case mostly by Senators from those 
States as the sole member of the Appropriations Committee in 
the House or the Senate.
    There have been examples where earmarks have come in for 
hospitals. I believe this was about 2 years ago. Some 75 
percent went to hospitals in the States and Districts of 
members of the Appropriations Committee. So 60 to 70 percent 
would not be an unreasonable estimate.
    That is one of the problems. As the first panel pointed 
out, some of these museums may be worthwhile, they may have 
merit, but when they are added as an earmark, there really is 
no way to distinguish them. And your question about how can you 
judge any kind of merit, we have existing institutions that do 
that. So if Congress wanted to fund additional museums, if they 
thought this 5 percent was not enough or they found another way 
to finance it, let these agencies make those decisions.
    Senator Carper. What did you call the book that you 
released today?
    Mr. Schatz. The Congressional Pig Book.
    Senator Carper. For folks to have the opportunity to appear 
and to grace the pages of the Pig Book, do they have to be 
prodigious appropriators in terms of getting earmarks for their 
States?
    Mr. Schatz. You're not in it.
    Senator Carper. That is probably not a good thing during an 
election year.
    Mr. Schatz. But you have lots of other things you can talk 
about. Generally, yes, it is appropriators.
    Senator Carper. These other States you mentioned, Alaska, 
West Virginia and some States, I wonder if they consider 
putting a badge of pride or a badge of shame back in their 
States? It would be interesting.
    Mr. Schatz. I don't think I can say in public what Senators 
Stevens and Byrd have called this in the past, but in any 
event, yes, it depends on how you look at it, but it is a 
disproportionate use of those funds if you're going to spend 
the $29 billion that we identified. Of course, it has gotten 
members literally thrown in jail. That is how Congressman 
Cunningham got into trouble, and it's related to the Jack 
Abramoff and Tony Rudy situation, so there are a lot of reasons 
why earmark reform is necessary and I hope you will be one that 
will support that.
    Senator Carper. Thanks to both of you. I'm sorry that this 
has been somewhat truncated, but we are grateful that you are 
here and very much appreciate your testimony.
    Mr. Schatz. Thank you.
    Mr. Able. Thank you.
    Senator Carper. The hearing is adjourned.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 27760.001

[GRAPHIC] [TIFF OMITTED] 27760.002

[GRAPHIC] [TIFF OMITTED] 27760.003

[GRAPHIC] [TIFF OMITTED] 27760.004

[GRAPHIC] [TIFF OMITTED] 27760.005

[GRAPHIC] [TIFF OMITTED] 27760.006

[GRAPHIC] [TIFF OMITTED] 27760.007

[GRAPHIC] [TIFF OMITTED] 27760.008

[GRAPHIC] [TIFF OMITTED] 27760.009

[GRAPHIC] [TIFF OMITTED] 27760.010

[GRAPHIC] [TIFF OMITTED] 27760.011

[GRAPHIC] [TIFF OMITTED] 27760.012

[GRAPHIC] [TIFF OMITTED] 27760.013

[GRAPHIC] [TIFF OMITTED] 27760.014

[GRAPHIC] [TIFF OMITTED] 27760.015

[GRAPHIC] [TIFF OMITTED] 27760.016

[GRAPHIC] [TIFF OMITTED] 27760.017

[GRAPHIC] [TIFF OMITTED] 27760.018

[GRAPHIC] [TIFF OMITTED] 27760.019

[GRAPHIC] [TIFF OMITTED] 27760.020

[GRAPHIC] [TIFF OMITTED] 27760.021

[GRAPHIC] [TIFF OMITTED] 27760.022

[GRAPHIC] [TIFF OMITTED] 27760.023

[GRAPHIC] [TIFF OMITTED] 27760.024

[GRAPHIC] [TIFF OMITTED] 27760.025

[GRAPHIC] [TIFF OMITTED] 27760.026

[GRAPHIC] [TIFF OMITTED] 27760.027

[GRAPHIC] [TIFF OMITTED] 27760.028

[GRAPHIC] [TIFF OMITTED] 27760.029

[GRAPHIC] [TIFF OMITTED] 27760.030

[GRAPHIC] [TIFF OMITTED] 27760.031

[GRAPHIC] [TIFF OMITTED] 27760.032

[GRAPHIC] [TIFF OMITTED] 27760.033

[GRAPHIC] [TIFF OMITTED] 27760.034

[GRAPHIC] [TIFF OMITTED] 27760.035

[GRAPHIC] [TIFF OMITTED] 27760.036

[GRAPHIC] [TIFF OMITTED] 27760.037

[GRAPHIC] [TIFF OMITTED] 27760.038

[GRAPHIC] [TIFF OMITTED] 27760.039

[GRAPHIC] [TIFF OMITTED] 27760.040

                                 <all>

</pre></body></html>
